                                                                 NATIONAL SCIENCE FOUNDATION
                                                                  OFFICE OF INSPECTOR GENERAL
                                                                    OFFICE OF INVESTIGATIONS

                                                            CLOSEOUT MEMORANDUM



I   Case Number: A-03120080                                                                      Page 1 of 1



            As part of a review of NSF conference, workshop, and symposia grants, we collected a stratified
            random sampling of relevant FYOl NSF awards and wrote to each institution requesting
            documentation of expenditures for the award. In this case, the University's response and
            documentation for the expenditures under the NSF award,' suggested a possible misuse of these
            funds. First, one participant was reimbursed with award funds even though he flew on a non-U.S.
            flag carrier. This could be a violation of the Fly America ~ c t Second,
                                                                               . ~     the PI of the award, an
            employee of the University, was reimbursed for travel expenses to the conference out of participant -
            support funds. According to the Grant and Proposal Manual (GPM), employees may not be
            reimbursed fiom participant support funds "in connection with meetings, conferences, symposia or
            training projects."3

            Our review of the reimbursement of airline travel by the participants showed that the University
            monitored the use of U.S. Flag Carriers by all the participants. Only one participant used a non-U.S.
            Flag Carrier to travel to the conference. In this case, the institution requested, and received, an
            acceptable explanation from the participant for his use of a non-U.S. Flag Carrier.

            Our review of the PI of the award, an employee of the University, showed that he did receive
            reimbursement for travel expenses to the conference fiom the award's participant support funds. A
            discussion with the University's Authorized Organizational ~ e ~ r e s e n t a t i vresulted
                                                                                                 e~      in the
            reimbursement to NSF for the funds used inappropriately.

            With the receipt of these funds, this case is'closed and no further action taken.




                GC-1 (04-01). (9)(c)(l),
                               . . . . ~. Fly
                                            . ~ m e r i i Act.
                                                          a
                GPM 95-26, section 618.l(a).
            4




11'NSF OIG Form 2 (1 1/02)
